SIDLEY AUSTIN LLP
ONE SOUTH DEARBORN STREET
CHICAGO, IL 60603
+1 312 853 7000
+1 312 853 7036 FAX
RHOCHMAN@SIDLEY.COM
AMERICA • ASIA PACIFIC • EUROPE

+1 312 853 2936

February 22, 2021

By E-Filing
The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Minerva Surgical, Inc. v. Hologic, Inc., et al., No. 20-440

Dear Mr. Harris:
Pursuant to Rule 37.3 of the Rules of this Court, counsel for petitioner Minerva
Surgical, Inc. consents to the filing of any amicus curiae brief in support of either
party or of neither party in the above-captioned case.
Sincerely,
/s/ Robert N. Hochman
Robert N. Hochman
Counsel of Record for Petitioner
cc:

Matthew M. Wolf
Counsel of Record for Respondents

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

